No. 19-582

In the
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
I, Sara Ann Edmondson, certify that on December 30, 2019 1 served three (3) copies of
the Reply Brief to Brief in Opposition via regular mail to Respondents at:
Rebecca C. Lafferty
Cooper Levenson
1125 Atlantic Avenue, Suite 300
Atlantic City, NJ 08401

•SON, Pro Se
71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

